Audit Report



Return
    to the USDOJ/OIG Home Page




School Violence Resource Center Grant Awarded to the University of Arkansas Criminal Justice Institute National Center for Rural Law EnforcementLittle Rock, Arkansas

Report No. GR-80-04-004


January 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the School Violence Resource Center grant, including one supplement, awarded by the U.S. Department of Justice, Office of Justice Programs, Bureau of Justice Assistance, to the Criminal Justice Institute, National Center for Rural Law Enforcement (Institute), in Little Rock, Arkansas.  The purpose of this grant was to provide training and technical assistance to educators, law enforcement, local government, and community service organizations for developing strategies that address school violence issues.  As of September 15, 2003, the Institute was awarded a total of $3,995,600 to implement a web-based national school violence resource center, produce school violence-related publications, and hold focus groups, advisory meetings, and workshops.
We tested the Institute's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.  Of the $2,503,854 expended as of September 15, 2003, we tested transactions totaling $759,744 (30 percent) and found that the grantee was generally in compliance with the grant conditions tested.  We also tested a sample of accountable property purchased with grant funds.  For those items tested, we found that the grantee maintained an accurate and complete inventory.
Our results are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.